SUPREME COURT OF THE UNITED STATES
BEATRICE MUNYENYEZI
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39, Petitioner, Beatrice Munyenyezi, respectfully seeks leave to
proceed in forma pauperis and file the accompanying Petition for Writ of Certiorari without
payment of costs.
In support of this motion, Munyenyezi and counsel state that:
1. Munyenyezi has been incarcerated since 2013 and is now incarcerated in Rwanda.
2. Munyenyezi is indigent and unable to pay the costs of an attorney or the costs of
any court proceedings.
3. Counsel filing this petition was appointed to represent Munyenyezi by the United States
District Court for New Hampshire and by the United States Court of Appeal for the First Circuit
pursuant to the Criminal Justice Act and 18 U.S.C. 3006A.
WHEREFORE Munyenyezi respectfully requests that she be allowed to proceed in

forma pauperis .
Date: August 2, 2021

/s/ Richard Guerriero
Richard Guerriero, Counsel of Record
Supreme Court Bar No. 177863
Lothstein Guerriero, PLLC
Chamberlain Block Building
39 Central Square, Suite 202
Keene, NH 03431
Telephone: 603-352-5000
richard@nhdefender.com

